               OFFICE OF
        THE INSPECTOR GENERAL

    SOCIAL SECURITY ADMINISTRATION



           ADMINISTRATIVE COSTS
              CLAIMED BY THE
         MASSACHUSETTS DISABILITY
          DETERMINATION SERVICES

          August 2009   A-01-09-19035




     AUDIT REPORT




.
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   August 26, 2009                                                           Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Inspector General

Subject: Administrative Costs Claimed by the Massachusetts Disability Determination Services
        (A-01-09-19035)


        OBJECTIVE
        For our audit of Fiscal Year (FY) 2006 and 2007 administrative costs claimed by the
        Massachusetts Disability Determination Services (MA-DDS), our objectives were to
                 evaluate MA-DDS’ internal controls over the accounting and reporting of
                  administrative costs,

                 determine whether costs claimed by MA-DDS were allowable and properly
                  allocated and funds were properly drawn, and

                 assess limited areas of the general security controls environment.

        BACKGROUND

        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by disability
        determination services (DDS) in each State or other responsible jurisdiction. Such
        determinations are required to be performed in accordance with Federal law and
        underlying regulations. 1 Each DDS is responsible for determining claimants’ disabilities
        and ensuring adequate evidence is available to support its determinations.

        To make proper disability determinations, each DDS is authorized to purchase
        consultative medical examinations and medical evidence of record from the claimants’
        physicians or other treating sources. SSA reimburses the DDS for 100 percent of
        allowable reported expenditures up to its approved funding authorization, based on a


        1
            42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Manuel J. Vaz


State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513).
(For additional background information, see Appendix B of this report.)

RESULTS OF REVIEW
Except for the items discussed in the following sections, we determined that costs
claimed on Forms SSA-4513 for the period October 1, 2005 through
September 30, 2007 were allowable and properly allocated, and the system of internal
controls over the accounting and reporting of administrative costs was effective. Also,
cumulative draw downs did not exceed cumulative disbursements during our audit
period. Finally, our limited review of MA-DDS’ controls over its physical security and
personally identifiable information showed that controls were in place. (See Appendix C
for costs reported on Forms SSA-4513.)

INDIRECT COST ALLOCATION

We calculated variances on indirect costs of $148,275 in FY 2006 and $162,217 in
FY 2007. The variances were due to MA-DDS’ use of an indirect cost rate lower than
the approved rate. Therefore, MA-DDS underreported the amount of indirect charges
on Form SSA-4513 for FYs 2006 and 2007.

We also calculated the indirect costs for FY 2008 to determine whether the variances
were corrected in the subsequent year. As shown in Table 1, the variances for the
3-year period netted an underreported indirect cost amount of $146,919.

As of June 2009, MA-DDS had planned to post an adjusting entry to Form SSA-4513 for
FY 2008 to correctly reflect the actual indirect costs incurred by MA-DDS for FYs 2006
through 2008.

                        Table 1: Reconciliation of Indirect Costs
                            Auditor’s
                  FY                        SSA-4513       Variance
                           Calculation
                2006         $839,473        $691,198      $148,275
                2007         1,008,061        845,844       162,217
                2008         1,566,452      1,730,025      (163,573)

                Total       $3,413,986     $3,267,067      $146,919
Page 3 – Manuel J. Vaz


EXPENDITURE CLASSIFICATION

Based on our samples, we found that some expenditures were misclassified during the
period audited. For example, we found eight invoices totaling $9,780 for the same
vendor were classified as Applicant Travel; however, they should have been coded as
Contracted Costs. Also, we found a $5,450 invoice that was classified as Equipment
Rental, yet it was related to Equipment Purchase.

EXPENDITURE ACCURACY

We identified an expense item related to Applicant Travel in which a vendor was
overpaid $178 in FY 2006. When we notified MA-DDS of this discrepancy, it contacted
the vendor and obtained a refund for the $178 overage. MA-DDS implemented a new
procedure on April 29, 2009 in which the supervisor will ensure that the payment
amount entered into the procurement system matches the invoice amount before the
payment is issued.

Also, when we recalculated the bi-weekly payroll amount for a medical consultant in
FY 2007, we found that the individual was overpaid for 1 hour of work, at a contracted
rate of $68 per hour.

Both of these issues were immaterial in amount and rare in occurrence based on the
sample items we analyzed. 2

INFORMATION CHARGEBACKS

During our review, SSA’s Boston Regional Office expressed concern about specific
Miscellaneous expenses designated as Information Chargebacks. This type of expense
is comprised of costs associated with the operation and maintenance of a centralized
accounting system. The expense is paid by all State agencies in the Commonwealth of
Massachusetts on a proportionally allocated basis. 3 These charges were recorded in
FYs 2006 and 2007 in the amounts of approximately $776,000 and $691,000,
respectively.

We contacted personnel and/or reviewed documents from the MA-DDS, Boston
Regional Office, Office of the Comptroller of the Commonwealth of Massachusetts, and
Massachusetts Rehabilitation Commission (the parent agency of MA-DDS). We found
that these charges dated back to FY 2005. Since that time, the United States
Department of Health and Human Services has approved the charges annually.



2
 For FYs 2006 and 2007, total administrative expenses for MA-DDS were approximately $36 million and
$37 million, respectively.
3
 The Information Chargebacks are based on a State agency’s share of usage of the accounting system,
determined by actual transaction lines posted to the general ledger.
Page 4 – Manuel J. Vaz


CONCLUSION AND RECOMMENDATIONS
Overall, MA-DDS had effective internal controls over the accounting and reporting of
administrative costs for FYs 2006 and 2007. Also, the controls in place for general
security and personally identifiable information at MA-DDS were satisfactory. MA-DDS
took immediate corrective action on the overpayment we identified from the Applicant
Travel expenditure group, and it added a control to its payment procedures to verify the
dollar amount of the invoice to the payment amount before a check is issued.

However, based on our findings, we recommend that SSA instruct MA-DDS to:

1. Reconcile the amounts for indirect cost allocations and record an adjusting entry as
   necessary.

2. Review expenses to ensure they are classified correctly on Form SSA-4513.

AGENCY COMMENTS
SSA agreed with the recommendations. (See Appendix D for SSA’s comments and
Appendix E for the State Agency comments.)




                                                   S
                                                   Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Reports of Obligations for SSA Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
Act             Social Security Act
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
EDP             Electronic Data Processing
FY              Fiscal Year
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
MA-DDS          Massachusetts Disability Determination Services
OIG             Office of the Inspector General
OMB             Office of Management and Budget
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code
                                                                          Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, and/or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia.
Such determinations are required to be performed in accordance with Federal law and
underlying regulations. 1 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring that adequate evidence is available to
support its determinations. To assist in making proper disability determinations, each
DDS is authorized to purchase medical examinations, X rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 2 and intergovernmental agreements entered into by the Department of the
Treasury and States under the Cash Management Improvement Act of 1990. 3 An
advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the Fiscal Year (FY), each
DDS submits a State Agency Report of Obligations for SSA Disability Programs (Form
SSA-4513) to account for program disbursements and unliquidated obligations.

SCOPE

To accomplish our objectives, we reviewed the administrative costs the Massachusetts
Disability Determination Services (MA-DDS) reported on its Forms SSA-4513 for

1
    42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
    31 C.F.R. § 205.
3
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453.


                                                   B-1
FYs 2006 and 2007. For the periods reviewed, we obtained evidence to evaluate
recorded financial transactions and determine whether they were allowable and
appropriate under OMB Circular A-87 and SSA’s Program Operations Manual System.

We also:
       Reviewed applicable Federal laws, regulations and pertinent parts of SSA’s
        Program Operations Manual System, and other instructions pertaining to
        administrative costs incurred by MA-DDS and draw down of SSA funds.
       Interviewed staff at MA-DDS and the SSA Regional Office.
       Evaluated and tested internal controls regarding accounting and financial
        reporting and cash management activities.
       Verified the reconciliation of official State accounting records to the administrative
        costs reported by MA-DDS on Forms SSA-4513 for FYs 2006 and 2007.
       Examined the administrative expenditures (Personnel, Medical, and All Other
        Non-personnel costs) incurred and claimed by MA-DDS for FYs 2006 and 2007
        on Forms SSA-4513.
       Examined the indirect costs claimed by MA-DDS for FYs 2006 and 2007 and the
        corresponding Indirect Cost Rate Agreements. 4
       Compared the amount of SSA funds drawn to support program operations to the
        allowable expenditures reported on Forms SSA-4513.
       Reviewed the State of Massachusetts Single Audit reports issued in 2006 and
        2007.
       Conducted limited general control testing—which encompassed reviewing the
        physical access security in the DDS.
       Reviewed policies and procedures related to personally identifiable information to
        determine whether the DDS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling it with the
costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the MA-DDS and the Office of Audit in Boston,
Massachusetts, from March through June 2009. We conducted our audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

4
 We also examined the indirect costs and corresponding Indirect Cost Rate Agreements for FY 2008,
although it was outside the scope of our audit.


                                                B-2
METHODOLOGY

Our sampling methodology encompassed the three general areas of costs as reported
on Form SSA-4513: (1) Personnel, (2) Medical, and (3) All Other Non-personnel costs.
We obtained computerized data from MA-DDS for FYs 2006 and 2007 for use in
statistical sampling.

Personnel Costs

We sampled 50 employee salary items from 1 randomly selected pay period in
FY 2007. We tested payroll and hours for each individual selected. We verified that
approved time records were maintained and supported the hours worked. We tested
payroll records to ensure the MA-DDS correctly paid employees and adequately
documented these payments.

We also sampled 50 medical consultant costs from 1 randomly selected pay period in
FY 2007. We determined whether sampled costs were reimbursed properly and
ensured the selected medical consultants were licensed.

Medical Costs

We sampled 100 medical evidence and consultative examination records (50 items from
each FY) using a proportional random sample. We determined whether sampled costs
were properly reimbursed.

All Other Non-Personnel Costs

We stratified All Other Non-personnel costs into 10 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing (EDP) Maintenance,
(4) New EDP Equipment/Upgrades (5) Equipment Purchase & Rental,
(6) Communications, (7) Applicant Travel, (8) DDS Travel, (9) Supplies, and
(10) Miscellaneous. We selected a stratified random sample of 50 items from each FY
based on the percentage of costs in each category to total costs. 5 We also performed a
100-percent review of the rent portion of Occupancy and the Cooperative Disability
Investigations portion of Miscellaneous. Additionally, we gained an understanding of the
Information Chargeback portion of Miscellaneous.




5
 If a category was less than 1 percent of the total costs for the applicable FY, we did not select a
stratified random sample for those costs, but instead, reviewed all items within the category.




                                                    B-3
Personally Identifiable Information

We reviewed a random sample of various mailed documents MA-DDS produced and
found that personally identifiable information was referenced only on those deemed
necessary, such as notices addressed to doctors, hospitals, medical providers, etc. 6




6
    Entities in the medical profession typically identify patients based on their Social Security number.




                                                       B-4
                                                          Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for SSA Disability Programs

          Massachusetts Disability Determination Services

               FISCAL YEARS (FY) 2006 and 2007 COMBINED
                                     UNLIQUIDATED             TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel            $46,981,458           $0             $46,981,458
Medical              $11,655,263           $0             $11,655,263
Indirect              $1,537,042           $0              $1,537,042
All Other            $13,156,151           $0             $13,156,151
TOTAL                $73,329,914           $0             $73,329,914

                               FY 2006
                                     UNLIQUIDATED             TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel            $22,917,208           $0             $22,917,208
Medical               $5,684,475           $0              $5,684,475
Indirect                $691,198           $0                $691,198
All Other             $6,933,748           $0              $6,933,748
TOTAL                $36,226,629           $0             $36,226,629
                               FY 2007
                                     UNLIQUIDATED             TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel            $24,064,250           $0             $24,064,250
Medical               $5,970,788           $0              $5,970,788
Indirect                $845,844           $0                $845,844
All Other             $6,222,403           $0              $6,222,403
TOTAL                $37,103,285           $0             $37,103,285
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      July 27, 2009                                                           Refer To: S2D1G5/DI-
                                                                                   16/ORC-2009-11702

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Manuel J. Vaz /s/
           Regional Commissioner

Subject:   Administrative Costs Claimed by the Massachusetts Disability Determination Services (A-01-
           09-19035) – Reply (Your Memo, July 15, 2009)


           We have reviewed the draft report for the administrative audit on the Massachusetts Disability
           Determination Services (MA DDS) (A-01-09-19035) and concur with both recommendations.
           In fact, the MA DDS plans to take action to reconcile the amounts for indirect cost allocations,
           when they submit their quarterly SSA-4513 reports for the quarter ending 6/30/09.

           We thank you for the opportunity to provide these comments to the draft report. We have always
           enjoyed a collegial and professional rapport with our OIG auditors, and have the utmost respect
           and appreciation for their communication efforts and dedication to the audit process.
                        Appendix E

State Agency Comments
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Frank Salamone, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19035.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
